TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The Overall Independence of the Office of
                       Appeals Appears to Be Sufficient



                                         September 2005

                              Reference Number: 2005-10-141




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.




 Web Site          | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 9, 2005


 MEMORANDUM FOR CHIEF, APPEALS



 FROM:                         Pamela J. Gardiner
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – The Overall Independence of the Office of
                               Appeals Appears to Be Sufficient (Audit # 200410035)

 This report presents the results of our review to evaluate whether the Office of Appeals’
 (Appeals) modernized structure and processes provide the level of independence intended by the
 Internal Revenue Service (IRS) Restructuring and Reform Act of 1998 (RRA 98).1
 Independence from other IRS offices is critical for Appeals to accomplish its mission of
 resolving tax controversies, without litigation, on a basis that is fair to the taxpayer and the
 Federal Government. This review was requested by Appeals officials.

 Synopsis
 The overall independence provided by Appeals’ structure and processes appears to comply with
 the intent of the RRA 98. Appeals survey results from taxpayers indicate there has been an
 improvement in the overall perception of Appeals’ independence—taxpayer responses to
 questions about Appeals’ independence from other IRS divisions show improvement from 3.43
 to 3.70 (on a 5-point scale) from Fiscal Years (FY) 2003 to 2004. Representatives from the
 American Bar Association, the American Institute of Certified Public Accountants, the National
 Association of Enrolled Agents, and the National Society of Accountants advised us they believe
 the independence of Appeals is generally very high. Concerns these tax professionals have with
 independence are with specific programs and initiatives, primarily those involving high-dollar
 cases in which there appears to be coordination between Appeals and IRS compliance functions.



 1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                            The Overall Independence of the Office of Appeals
                                         Appears to Be Sufficient



The National Taxpayer Advocate expressed concern with Appeals centralizing many types of
cases to the Appeals offices in the IRS campuses,2 indicating the ability of Appeals employees to
exercise independent judgment in the campus environment may be limited because the campus
culture has traditionally been production oriented. Nonetheless, FY 2004 Customer Satisfaction
Survey results indicate the perception of Appeals’ independence was higher for the types of
cases that had already been centralized at the campuses than for cases in the field offices.
Appeals plans to monitor its campus operations and we plan to perform a review of this area in
FY 2006 to further evaluate the effectiveness of Appeals’ campus operations.
Another concern of the National Taxpayer Advocate is the IRS allowing “ex parte”
communications3 in too many circumstances. One specific example is the IRS’ requirement for
taxpayers to waive the prohibition on ex parte communication in order to participate in a
mediation program known as the Fast Track Settlement Program. In our discussions with tax
professionals, they conceded that the waiver of prohibition against ex parte communications is
necessary for this mediation program to work effectively; however, some expressed concerns
that Appeals may be using these waivers to discuss and develop issues with IRS examination
functions and Office of Chief Counsel personnel before starting the mediation process. As such,
additional guidance is needed on what ex parte communications will be allowed before the start
of the mediation process.
Some tax professionals are concerned that Appeals is not operating independently of IRS
compliance functions and the Office of Chief Counsel in the development of coordinated tax
issues. Part of the perception may be due to the wording in the Internal Revenue Manual that
seems to indicate Appeals must follow Coordinated Issue Papers, which are developed by IRS
compliance functions. The processes are actually set up so IRS compliance functions and
Appeals can exchange information but develop and administer coordinated issues separately.
Tax professionals were also concerned about the increase in the number of coordinated issues.
We reviewed the number of coordinated issues and found it has increased by 14 (to a total of 99)
since FY 2002 with the majority of new coordinated issues related to tax shelters for which the
IRS has increased enforcement action. Tax professionals also want access to Appeals technical
guidance coordinators because they believe these coordinators are dictating the terms of the
settlements on coordinated issues. The Chief, Appeals, has indicated access will be granted in all
cases for which it is requested.
Due to some of the recent IRS public announcements related to the effect of court cases on
Appeals Settlement Guidelines, tax professionals believe Appeals is more likely to revise
Appeals Settlement Guidelines when the IRS wins in litigation than when it does not. Based on
Appeals guidance and the examples we reviewed, it appears Appeals reevaluates its Appeals
Settlement Guidelines regardless of the outcome of litigated cases. Tax professionals were also

2
  The three major functions performed at the IRS campuses are responding to taxpayer inquiries, completing
compliance actions, and processing tax returns.
3
  These are communications between Appeals and other IRS functions when the taxpayer is not present.

                                                                                                         Page 2
                             The Overall Independence of the Office of Appeals
                                          Appears to Be Sufficient



concerned that announcements stating Appeals will not provide a better settlement than that
offered in a Tax Shelter Settlement Initiative4 indicate Appeals is working with IRS compliance
functions and would not be fair or impartial. While these announcements may reduce the
perception of Appeals’ independence, in fact, the statements are based on the knowledge of IRS
officials that a Tax Shelter Settlement Initiative offers a settlement to similarly situated taxpayers
that is at least as advantageous as the Appeals Settlement Guidelines.
Tax professionals also took issue with the IRS approach of designating the Tax Shelter
Settlement Initiative called the “Son of Bond Option Sale Strategy” (Son of BOSS) 5 as a
litigating vehicle.6 They indicated this approach pressured taxpayers into accepting unfavorable
settlement terms by the IRS to avoid litigation. They believe the IRS should have let cases go to
Appeals to allow Appeals to evaluate the merits of the taxpayers’ positions. To address these
concerns, the IRS Chief Counsel stated that, when Tax Shelter Settlement Initiatives are
considered for designation as litigating vehicles in the future, the IRS will wait until Appeals has
had a chance to review at least some of the cases in more detail.
The National Taxpayer Advocate used the Service-Wide Abusive Transaction Executive
Steering Committee as an example of what should be considered an unallowable use of ex parte
communications by Appeals. This Committee consists of executives from the IRS operating
divisions, Criminal Investigation Division, Office of Chief Counsel, and Appeals with the
objective of overseeing the IRS’ response to abusive tax transactions, schemes, and devices.
Revenue Procedure 2000-43,7 which details the circumstances under which ex parte
communications are allowable, states that certain cross-functional meetings are allowable as long
as specific taxpayers are not identified. Because this Committee was not formed to discuss the
merits of specific cases, but to act as a steering function for the overall inventory of cases, we
believe Appeals’ participation on the Committee is permissible under Revenue Procedure
2000-43 and the RRA 98.

Recommendations
We recommended the Chief, Appeals, ensure taxpayers are informed of their rights and the
conditions of the Fast Track Settlement Program before they sign a waiver of the prohibition on
ex parte communications; revise guidelines to clarify the types of communication with other IRS
operations that are permissible prior to an opening mediation conference; clarify procedures in
the Internal Revenue Manual to establish that Appeals does not automatically follow compliance
function Coordinated Issue Papers, but rather it uses this information and other sources of

4
  The recent five Tax Shelter Settlement Initiatives have also been referred to as “Global Settlement Initiatives” or
“Compliance Settlement Initiatives.”
5
  IRS Announcement 2004-46 (Son of BOSS Settlement Initiative), 2004-21 Internal Revenue Bulletin 964.
6
  A litigating vehicle is a Tax Shelter Settlement Initiative which has been designated to bypass Appeals and
requires a taxpayer to go to litigation in order to resolve the initiative issue.
7
  Revenue Procedure 2000-43, I.R.B 2000-43, 404.

                                                                                                              Page 3
                        The Overall Independence of the Office of Appeals
                                     Appears to Be Sufficient



information to coordinate an Appeals approach to the issue; and revise procedures to clearly
establish that taxpayer access to Appeals technical guidance coordinators will be honored, when
requested, in all coordinated issue cases. With the exception of the IRS Commissioner and the
Chief, Appeals, IRS officials should avoid discussing the impact of specific court cases on
Appeals Settlement Guidelines. The Chief, Appeals, should consider the appropriateness of
discussing changes to specific Appeals Settlement Guidelines in public statements or
announcements and should revise policies and procedures to promote consistency.

Response
Appeals management agreed with our findings and recommendations. The application for the
Fast Track Settlement Program will be revised and an explanation will be provided to inform
taxpayers of their rights and expectations before the waiver of ex parte is signed. In addition,
opening letters to taxpayers and their representatives will include an explanation of the
taxpayers’ rights in the Fast Track Settlement Program. Appeals will also revise guidelines to
clarify the types of communication permissible prior to an opening mediation conference within
the Fast Track Settlement Program and will issue a memorandum communicating this
clarification to all IRS offices involved. The Internal Revenue Manual will be revised and
interim guidance issued to clarify that compliance function Coordinated Issue Papers are not
automatically followed and that a taxpayer’s request for a technical guidance coordinator will be
honored. Lastly, Appeals will reinforce the procedures regarding the reconsideration of Appeals’
position for an issue based on any new court decision, ruling, or other significant occurrence.
Management’s complete response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Daniel R.
Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.




                                                                                         Page 4
                                 The Overall Independence of the Office of Appeals
                                              Appears to Be Sufficient




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Survey Results Indicate There Has Been an Improvement in
          the Overall Perception of the Office of Appeals’ Independence ..................Page 3
          The Office of Appeals Plans to Closely Monitor Its Campus
          Operations to Ensure Quality and Independence..........................................Page 5
          Additional Guidance on Ex Parte Communications in the Fast
          Track Settlement Program Would Be Beneficial..........................................Page 7
                    Recommendations 1 and 2: ..............................................Page 11

          Some Tax Professionals Are Concerned About the Effect of
          Coordinated Issues and Tax Shelter Settlement Initiatives
          on the Appeals Process .................................................................................Page 11
                    Recommendations 3 through 5:.........................................Page 18

          The Office of Appeals’ Participation on the Service-Wide Abusive
          Transaction Executive Steering Committee Allows for Proper
          Workload Planning .......................................................................................Page 19

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 21
          Appendix II – Major Contributors to This Report ........................................Page 23
          Appendix III – Report Distribution List .......................................................Page 24
          Appendix IV – Management’s Response to the Draft Report ......................Page 25
                             The Overall Independence of the Office of Appeals
                                          Appears to Be Sufficient




                                             Background

The mission of the Internal Revenue Service (IRS) Office of Appeals (Appeals) is to resolve tax
controversies, without litigation, on a basis that is fair to the taxpayer and the Federal
Government. These controversies can be proposed tax assessments, tax collection, or other IRS
actions. The Appeals process is less formal than that in court proceedings and is not subject to
judicial rules of evidence or procedure. If the tax controversy cannot be resolved in Appeals, the
taxpayer can seek a remedy from the courts. However, Appeals has historically been able to
settle the majority of the cases that come within its jurisdiction.
Independence from IRS compliance functions is critical for Appeals to accomplish its mission.
To resolve disputes effectively, it must show its ability to be objective, impartial, and neutral in
fact as well as appearance. Furthermore, independence is necessary to ensure the Appeals
process is fair to taxpayers. If taxpayers perceived they would not get a fair hearing in Appeals,
more tax controversies would be litigated in tax court, which would increase the cost and burden
to both the taxpayer and the Federal Government.
IRS Restructuring and Reform Act of 1998 (RRA 98)1 Section (§) 1001(a) directed the IRS
Commissioner to develop and implement a plan to reorganize the IRS by establishing
organizational units serving particular groups of taxpayers with similar needs. It also specified
that the reorganization plan should ensure an independent Appeals function within the IRS,
including a prohibition of “ex parte” communications between Appeals officers and other IRS
employees to the extent that such communications appear to compromise the independence of
Appeals officers. Ex parte is a term used in legal proceedings to describe a one-sided or partisan
point of view received on behalf of or from one side or party only. In the context of the RRA 98,
ex parte communications are those that take place between Appeals officers and other IRS
employees without giving the taxpayers/representatives an opportunity to participate in the
communications. However, not all ex parte communications are prohibited; the Congress
recognized that Appeals must have some communication (such as communication needed to
determine workload demands and obtain workpapers, summaries, and reports for IRS decisions)
with other IRS divisions to operate and to minimize additional requests to taxpayers for
information already provided.
Some concerns have been expressed by tax professionals and the National Taxpayer Advocate
that new policies, programs, and structures initiated by the IRS since enactment of the RRA 98
may be compromising the independence of Appeals. One area of concern relates to Appeals


1
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                             Page 1
                            The Overall Independence of the Office of Appeals
                                         Appears to Be Sufficient



centralizing a significant portion of cases to the IRS campuses.2 A number of factors related to
this centralization cause concern. For example, if the process at the campuses is too standardized
and focused on the speed of case closures, it could limit Appeals employees’ ability to use
adequate discretion to base their decisions on the facts and circumstances of each case. There is
also a concern that the IRS is allowing ex parte communications in too many circumstances—to
the extent that it is eroding the independence intended by the prohibition in the RRA 98.
Furthermore, there is a concern that Appeals is coordinating and partnering with IRS compliance
functions to a significant extent, especially in relation to specific issues (known as “coordinated
issues”) and in developing Tax Shelter Settlement Initiatives,3 which could reduce the ability of
Appeals to reach independent conclusions.
Appeals officials believe the Appeals structure and processes are necessary to accomplish their
mission efficiently and effectively. They believe the structure and processes provide for
adequate independence and are consistent with requirements of the RRA 98 as well as applicable
regulations. Nonetheless, to ensure the careful and complete consideration of the concerns,
Appeals officials asked the Treasury Inspector General for Tax Administration to review
Appeals to determine whether the modernized structure and processes adhere to the intent of the
RRA 98.
This review was performed at the Appeals offices in the IRS National Headquarters in
Washington, D.C., and St. Louis, Missouri, during the period October 2004 through June 2005.
We also interviewed representatives from the American Bar Association, the American Institute
of Certified Public Accounts, the National Association of Enrolled Agents, and the National
Society of Accountants, as well as several prior Appeals executives who currently work in
private tax practices. The audit was conducted in accordance with Government Auditing
Standards. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




2
  The three major functions performed at the IRS campuses are responding to taxpayer inquiries, completing
compliance actions, and processing tax returns.
3
  These are discussed in detail later in the report.
                                                                                                             Page 2
                                                      The Overall Independence of the Office of Appeals
                                                                   Appears to Be Sufficient




                                                            Results of Review

Survey Results Indicate There Has Been an Improvement in the
Overall Perception of the Office of Appeals’ Independence

Appeals surveys taxpayers to monitor their satisfaction with the Appeals process. These
taxpayer surveys are performed by an outside consulting group. Every 6 months, a sample of
approximately 500 taxpayers who have completed the Appeals process are asked about their
satisfaction with the process, including Appeals’ fairness in resolving the case and independence
from the other IRS functions. Survey results over the last 2 years indicate overall satisfaction
with Appeals has increased from an average rating of 3.36 to 3.60 on the 5-point scale.
Perception of fairness in resolving cases has improved from 3.27 to 3.48. Taxpayer responses to
questions about Appeals’ independence from other IRS divisions also show improvement from
3.43 to 3.70. Figure 1 shows the last four taxpayer survey results from Fiscal Years (FY) 2003
and 2004 for the specific question about Appeals’ independence.

                           Figure 1: Taxpayer Survey Results for “How satisfied were you with the
                          independence Appeals had from the people who proposed adjustments?”

                               100%                                                                                     5.00
                               90%                                                                                      4.50
   Percentage of Respondents




                               80%                                                    3.68                3.70          4.00

                                                                                                                               Satisfaction Rating
                               70%             3.43               3.45
                                                                                             61%                 60%    3.50
                               60%                    54%                  53%
                               50%                                                                                      3.00
                               40%                                                                                      2.50
                               30%      27%
                                                            24% 23%                                       22%           2.00
                                               19%                               21% 18%            18%
                               20%
                               10%                                                                                      1.50
                                0%                                                                                      1.00
                                         Oct 02-Mar 03         Apr-Sep 03        Oct 03-Mar 04       Apr-Sep 04


                                 Dissatisfied (1-2)          Neutral (3)          Satisfied (4-5)         Average Satisfaction


Source: The Appeals semiannual customer satisfaction surveys from October 2002 to September 2004.



                                                                                                                          Page 3
                        The Overall Independence of the Office of Appeals
                                     Appears to Be Sufficient



The percentage of taxpayers surveyed who expressed dissatisfaction with Appeals’ independence
has also decreased significantly over the prior fiscal year. For those taxpayers who expressed
dissatisfaction with the level of Appeals’ independence, some comments from the recent survey
are shown below.
   •   I felt the Appeals Officer gave too much weight to the Examiner’s position and
       didn’t have an open mind to alternative arguments.
   •   I felt like Appeals was bending over backwards to approve the underlying actions
       of the IRS.
   •   Before the initial conference, discussions took place with the people who proposed
       the adjustment, which influenced the Appeals Officer’s judgment.
   •   Appeals followed exactly what the original IRS agent determined. They didn’t do
       any independent research.
   •   My impression was that they were working pretty close together, kind of like a
       rubber stamp.
Because the taxpayers remain anonymous for this survey, we could not obtain the background
information needed to evaluate the validity of specific negative comments. We did review the
Appeals method to monitor case quality, including ex parte communications.
Appeals monitors case quality through the Appeals Quality Measurement System (AQMS),
which randomly selects closed Appeals cases that reviewers evaluate for conformity with six
standards of quality. From FYs 2003 to 2004, the AQMS reviews indicated a decrease from
83 percent to 79 percent in the overall standards of quality being met. This decrease was
primarily related to a lack of adequate communication with taxpayers on some collection cases.
While the AQMS does review the cases for inappropriate ex parte communication, the review is
limited to the information documented in the case files. Possible ex parte communications were
identified in less than 1 percent of the closed case files reviewed for FYs 2003 and 2004. Due to
a lack of detail in some case workpapers, AQMS reviewers could not always determine whether
communication was appropriate. If the information was incomplete, the case was rated on the
standard of appropriate communications as “not met.” It is also possible that inappropriate
ex parte communications occurred that affected the outcome of cases for which there were no
comments at all made in the case files, which would not have been identifiable by the AQMS
process. In May 2003, AQMS staff issued an alert to Appeals officers restating the restrictions
for ex parte communications and advising of the need to fully document all contacts.
We interviewed tax professionals to obtain their views of the adequacy of Appeals’
independence. Representatives from the American Bar Association, the American Institute of
Certified Public Accountants, the National Association of Enrolled Agents, and the National
Society of Accountants advised us they believe the independence of Appeals, including
compliance with the prohibition on ex parte communications, is generally very high. These tax
                                                                                            Page 4
                           The Overall Independence of the Office of Appeals
                                        Appears to Be Sufficient



professionals advised us that the concerns they have with independence are only with specific
programs and initiatives, primarily those involving high-dollar cases in which there appears to be
coordination between Appeals and IRS compliance functions. These are discussed in detail later
in the report.


The Office of Appeals Plans to Closely Monitor Its Campus
Operations to Ensure Quality and Independence

In an effort to reduce the inventory of cases awaiting appeal and the cycle time4 to complete
those cases, Appeals has been shifting its focus from a traditional approach of a face-to-face
contact on all cases to a more flexible model of campus correspondence reviews for certain
cases. By the end of FY 2005, Appeals anticipates having a total of 350 employees in 6 campus
locations5 that will specialize in Collection Due Process, Offer in Compromise, Penalty appeals,
“S” docketed,6 and Innocent Spouse cases.
Because of the high level of                          Figure 2: Appeals Case Cycle Time
inventory, the time it takes from the
date a taxpayer requests a hearing by                                        Number of Days in Appeals
Appeals to the date Appeals                          Case Type                        Fiscal Year
concludes the case can be lengthy.                                        2002      2003     2004       20057
Figure 2 shows Appeals cycle time             Collection Due Process       274      253        241       237
from FY 2002 through March 2005.              Offer In Compromise          331      313        253       244
Appeals reports taxpayers have
advised that a quicker resolution of          Penalty Appeals              166      194        166       115
their cases, as in the Campus                 Innocent Spouse              384      446        450       432
operations, is more important than            Source: Appeals Business Performance Reviews dated
the need to have face-to-face contact         September 16, 2004, and April 26, 2005. These reviews did not
on these types of cases.                      include case cycle time for docketed cases.

The National Taxpayer Advocate stated in her 2004 Annual Report to Congress that the Campus
operations are a concern because the independence and the quality of work performed by
Appeals officers working at the campuses may not be as high as that of Appeals officers working
in field offices. The concerns in this report included the following:



4
  Cycle time is the total days from the receipt of a case in Appeals to the day of its closure from Appeals.
5
  Brookhaven, New York; Covington, Kentucky; Fresno, California; Memphis, Tennessee; Ogden, Utah; and
Philadelphia, Pennsylvania.
6
  Docketed Tax Court cases from compliance issues less than $50,000 under Internal Revenue Code § 7463 (2002).
7
  Through March 2005 (the second quarter of FY 2005).
                                                                                                       Page 5
                         The Overall Independence of the Office of Appeals
                                      Appears to Be Sufficient



•   A lack of opportunity for a face-to-face meeting with an Appeals officer will decrease
    quality. Taxpayer representatives will more often request face-to-face meetings in local
    offices, which will provide the taxpayers they represent an advantage over unrepresented
    taxpayers.
•   The ability of Appeals employees to exercise independent judgment will decrease in the
    campus environment because the IRS campus culture has traditionally been production
    oriented with limited employee discretion and decision-making.
•   There is a risk that taxpayers assigned to Appeals campus sites will perceive that they are
    receiving “second class” treatment.
Appeals officials responded that Appeals employees receive the same training, oversight, quality
review, and automation resources regardless of where they are located. Furthermore, if a
face-to-face conference is requested, Appeals will provide it, either through video conferencing
or by transferring the case to a local field office. Appeals statistics indicate taxpayers and their
representatives often prefer to handle the Appeals process by telephone or correspondence.
Data collected by Appeals during Calendar Year 2004 indicate approximately 75 percent of
conferences in its field offices were held through telephone or correspondence. If a taxpayer
prefers a face-to-face conference, Appeals’ policy is to forward the case from the campus to a
local office. We reviewed the contact letter sent to taxpayers who were assigned to the Appeals
campus operations for Collection Due Process cases. Taxpayers are advised in the letter that
they could request face-to-face conferences to be held in their local Appeals offices.
To evaluate the quality and independence of its campus operations, Appeals will compare
campus performance and customer satisfaction to that of its field offices. Customer satisfaction
surveys have been modified to identify campus and field operations. In the results of the
FY 2004 Customer Satisfaction Survey, the perception of independence of Appeals was higher
for the types of cases that had already been centralized at the campuses than for cases in the field
offices. However, survey results for all types of cases that have been centralized more recently
are not yet available.
Appeals plans to continue monitoring its centralization of campus operations and we plan to
perform a review of this area to further evaluate the effectiveness of Appeals’ campus
operations. In FY 2006, we plan to perform an audit to evaluate the quality of Appeals cases
handled by the campuses and whether taxpayers are offered face-to-face meetings and provided
these meetings when requested. We will also evaluate the processes Appeals has put in place to
help ensure quality and independence in its campus operations.




                                                                                             Page 6
                        The Overall Independence of the Office of Appeals
                                     Appears to Be Sufficient




Additional Guidance on Ex Parte Communications in the Fast Track
Settlement Program Would Be Beneficial

Two IRS programs, the Fast Track Settlement Program and the Fast Track Mediation Program,
are designed to save time and reduce burden by facilitating resolution of tax disputes earlier in
the examination process while the cases are still under the jurisdiction of IRS compliance
functions. For both of these Programs, Appeals officers act as mediators between taxpayers and
IRS examination functions to resolve tax disputes before the taxpayer is provided a formal notice
of a proposed tax assessment. This mediation is nonbinding; taxpayers who do not resolve their
disputes by using a Fast Track Program option still maintain the right to pursue the dispute later
in the traditional Appeals process. Both Fast Track Programs are voluntary for the taxpayer, IRS
compliance functions, and Appeals; therefore, each party can dissolve the Fast Track Program
process for the case at any time. Members of Congress have indicated the IRS should consider
offering nonbinding mediation processes to all taxpayers in advance of the formal Appeals
process.
In the Fast Track Settlement Program, Appeals can use its delegated settlement authority based
on hazards of litigation to help resolve disputes. Appeals has historically been able to settle the
majority of cases that come within its jurisdiction by applying its unique authority to negotiate
settlements using an analysis of the hazards of litigation. This process allows Appeals to
determine the probability that the courts will agree with the IRS determination (based on similar
cases) and then use this probability to reduce the proposed tax, when appropriate. The
examination functions do not have this authority. In the Fast Track Settlement Program, Appeals
uses the hazards of litigation procedures along with mediation when the case is still under the
jurisdiction of the IRS compliance function.
Although there were only 114 cases closed in the Fast Track Settlement Program in FY 2004,
these cases accounted for over $10 billion in contested tax liabilities, which was a substantial
portion of the total contested tax liabilities reviewed by Appeals that year. Of the 114 cases,
89 (78 percent) were resolved successfully using this mediation process. These 89 cases took an
average of less than 120 days to complete, which is significantly fewer than the average number
of days in which a case is completed in the traditional Appeals process.
In the Fast Track Mediation Program, Appeals also acts as a mediator between taxpayers and
IRS examination functions but cannot use its delegated settlement authority based on hazards of
litigation to help resolve a dispute. There were 122 cases closed in the Fast Track Mediation
Program in FY 2004. The disputed tax liabilities for these cases were much lower than those for
cases in the Fast Track Settlement Program. The Chief, Appeals, recently announced that the
Fast Track Mediation Program will be cancelled and the Fast Track Settlement Program will be
expanded into the general examination program.

                                                                                            Page 7
                            The Overall Independence of the Office of Appeals
                                         Appears to Be Sufficient



The National Taxpayer Advocate expressed concerns about the decision to reallocate resources
away from the Fast Track Mediation Program.8 However, tax professionals we interviewed
stated that the combination of settlement authority and effective mediation in the Fast Track
Settlement Program is a superior benefit in resolving cases. As such, the future reallocation of
resources will not necessarily result in an overall decrease in the use of pre-Appeals mediation.
The National Taxpayer Advocate has raised some concerns related to the waiver of ex parte
communications in the Fast Track Settlement Program. Appeals is prohibited by the RRA 98
from participating in ex parte communications, to the extent that such communications appear to
compromise the independence of Appeals officers. However, an element of successful
mediation is the ability of the mediator to discuss issues with both parties jointly and with each
party separately. A discussion with a party separately is, by definition, an ex parte
communication. Therefore, for taxpayers to receive the benefit of having Appeals officers as
mediators in the Fast Track Settlement Program, the IRS requires them to waive the prohibition
on ex parte communications.
Tax professionals who have been involved in the process advised us the ability of the Appeals
officers to discuss the merits and the hazards of both parties’ positions with each party candidly
and separately is essential to the early resolution of a case while it is still under the control of the
examination functions. The same tax result might be obtained during the regular Appeals
process; however, the benefit of the Fast Track Settlement Program is that it avoids the
time-consuming and expensive process of completing the formal protests required for large cases
to go to Appeals using the regular Appeals process. Additionally, tax professionals stated the
negative publicity that can result if a corporation reports any contested liability, such as those in
tax litigation, is an additional incentive for large corporations to resolve issues early in the
process, which is made possible by the Fast Track Settlement Program.
We reviewed a judgmental sample of 59 program files of the 114 cases closed in FY 20049 and
found that taxpayers using this Program are generally represented by attorneys or Certified
Public Accountants who understand the benefits and drawbacks of waiving the prohibition on
ex parte communications to participate in the Fast Track Settlement Program. To date, the Fast
Track Settlement Program has been used for high-dollar tax cases (averaging approximately
$90 million per case in FY 2004). Since the Chief, Appeals, has announced that the Fast Track
Settlement Program is going to be expanded into the general examination program, it will be



8
  See the Statement of Nina E. Olson, National Taxpayer Advocate, Internal Revenue Service, for the Joint Review
of the Strategic Plans and Budget of the Internal Revenue Service before the Committee on Ways and Means,
Committee on Appropriations, Committee on Government Reform, House of Representatives; and the Committee
on Finance, Committee on Appropriations, Committee on Homeland Security and Government Affairs, United
States Senate Convened by the Chairman of the Joint Committee on Taxation, May 19, 2005.
9
  This sample included all 39 program files for cases having a customer satisfaction survey response and
20 additional program files.
                                                                                                         Page 8
                         The Overall Independence of the Office of Appeals
                                      Appears to Be Sufficient



more important for Appeals to ensure all taxpayers fully understand their rights when agreeing to
waive the prohibition against ex parte communications.
Although tax professionals agreed that the waiver of prohibition against ex parte
communications is necessary during participation in the Fast Track Settlement Program, some
expressed concerns that Appeals may be using these waivers to discuss and develop issues with
IRS examination functions and Office of Chief Counsel personnel before starting the mediation
process, without providing taxpayers the same opportunity. Tax professionals told us it has been
apparent to them at some jointly held opening conferences that the Appeals officers have been
briefed by examination functions and Office of Chief Counsel personnel on the IRS tax
positions. The National Taxpayer Advocate also expressed concerns in this area in her 2004
Annual Report to Congress.
Part of the application process for entering the Fast Track Settlement Program is that the
taxpayer must present his or her position in writing on each issue to be discussed in the
mediation process. The Fast Track Settlement Program coordinator then reviews the issues to
determine if the case is appropriate, given the limited resources of Appeals, and contacts the IRS
examination functions and Office of Chief Counsel to determine whether:
   •   Examination issues are sufficiently developed for the IRS to briefly present its positions in
       writing.
   •   IRS experts and personnel are willing to participate in the process (the IRS is not required
       to participate) and are available within a reasonable time to complete the process.
While certain ex parte contacts with IRS examination function personnel are necessary in the
preparation for the Fast Track Settlement Program, there is a risk that in addition to the necessary
administrative contacts, Appeals is overstepping the intent of the waivers by discussing
substantive issues with IRS employees in a manner that could bias, or appear to bias, the Appeals
employees toward the positions of the IRS compliance functions. Additional guidance on the
type of communication that is permissible at the beginning of the process will help to prevent
inappropriate communications and will help taxpayers better understand the process before
signing the waivers.

In some instances, Appeals employees can be involved in both the Fast Track
Settlement Program and the traditional Appeals process

Tax professionals are also concerned about the possibility of the same Appeals employees being
on the Fast Track Settlement Program case and then later being part of the traditional Appeals
case if resolution was not achieved. Tax professionals stated this would prevent a fresh and fair
review by Appeals and compromise independence. Taxpayers and IRS compliance functions
have indicated concerns about this in the Fast Track Settlement Program survey results. Specific
instances in the survey responses included the following:
                                                                                             Page 9
                              The Overall Independence of the Office of Appeals
                                           Appears to Be Sufficient



       •   A taxpayer stated an Appeals officer had advised the taxpayer to agree with the Fast
           Track Settlement Program resolution because that Appeals officer would be assigned the
           case in the traditional Appeals process and would not give the taxpayer a better offer.
       •   An IRS compliance representative stated an Appeals officer advised the IRS compliance
           function to agree with the Fast Track Settlement resolution because that Appeals Officer
           would be assigned the case in traditional Appeals and would give the taxpayer this offer.
The Appeals Fast Track Settlement Program coordinator contacted the taxpayer and the IRS
compliance representative for these two cases to advise that the Appeals officers’ statements in
each case were inappropriate and that Appeals’ policy is to assign a different Appeals officer in
the traditional Appeals process, if possible, and to be fair and impartial. The Appeals officers
involved were also advised of the complaints and of the correct policy. This policy comes from
a Revenue Procedure10 which states that, when cases that were not successfully resolved in the
Fast Track Settlement Program come to the traditional Appeals process, management will decide
how to assign personnel to best provide a fair and impartial review. Ex parte communications
restrictions will not be imposed on intra-Appeals communications. Fast Track Settlement
Program guidelines state this policy should be made clear to the taxpayer at the beginning of the
process and, if the taxpayer is unable to accept this policy, the taxpayer may decide to forego the
Fast Tack Settlement Program option and go through the traditional Appeals process.
The Appeals coordinator advised us the issues in the Fast Track Settlement Program are often so
highly technical that there may be only one or two employees in Appeals who are experts in a
specific area of the tax law; therefore, it is not always feasible to avoid having the Appeals
employees who participated in a Fast Track Settlement Program mediation conference also be
assigned control of the traditional Appeals process case. Our review indicates this is infrequent.
Of the 114 Fast Track Settlement Program cases completed during FY 2004, 25 were not
resolved. Only 11 of these 25 cases went on to the traditional Appeals process. In these
11 cases, we found only 1 in which an Appeals employee had been previously assigned to the
Fast Track Settlement Program case. Nonetheless, Appeals needs to ensure this possibility is
made clear to the taxpayer at the beginning of the process, as the current policy states.
Notwithstanding some specific concerns about the Program, overall, the tax professionals we
interviewed who had been involved in the Fast Track Settlement Program agreed it is a very
successful Program that they would like to see continue. Tax professionals stated they do not
have a concern with Appeals officers being mediators because the officers operate fairly in that
role and the tax professionals want Appeals’ hazards of litigation authority to be considered
during discussions. Responses to a specific customer satisfaction survey that Appeals uses to
monitor satisfaction with the Fast Track Settlement Program also indicate a high level of
satisfaction with the Program. Of the 114 cases completed during FY 2004, 39 taxpayers or their


10
     Revenue Procedure 2003-40, I.R.B. 2003-25, 1044.
                                                                                             Page 10
                             The Overall Independence of the Office of Appeals
                                          Appears to Be Sufficient



representatives provided written responses.11 On a 5-point rating scale, taxpayers responded with
an average 4.13 rating for the statement, “The Appeals representative was fair and impartial.”


Recommendations
The Chief, Appeals, should:
Recommendation 1: Ensure taxpayers are informed of their rights and the conditions of the
Fast Track Settlement Program before they sign a waiver of the prohibition on ex parte
communications.
        Management’s Response: Appeals will revise the application and provide an
        explanation to inform taxpayers of their rights and expectations in the Fast Track
        Settlement Program before the waiver is signed. In addition, opening letters to taxpayers
        and their representatives will include an explanation of the taxpayers’ rights in the Fast
        Track Settlement Program.
Recommendation 2: Revise the Fast Track Settlement Program guidelines to clarify the
types of communication with other IRS operations that are permissible prior to an opening
mediation conference.
        Management’s Response: Appeals will revise guidelines to clarify the types of
        communication permissible prior to an opening mediation conference within the Fast
        Track Settlement Program. In addition, the Chief, Appeals, will issue a memorandum
        communicating this clarification to all IRS offices involved.


Some Tax Professionals Are Concerned About the Effect of
Coordinated Issues and Tax Shelter Settlement Initiatives on the
Appeals Process

To help ensure uniform treatment of taxpayers nationwide, the IRS develops guidelines to use in
administering the tax laws. These guidelines may need to be coordinated within and between
different IRS offices, including compliance functions, the Office of Chief Counsel, and Appeals,
when an issue is not clearly defined by law and may affect many taxpayers. This coordination is
also intended to avoid the practice of “shopping” by taxpayers and representatives for more
favorable treatment of an issue by arranging for cases to be reviewed by different IRS employees
or offices.

11
  We were told by some taxpayer representatives within large accounting and law firms that their policy is not to
participate in surveys for a specific case; they leave the option of replying to the taxpayer’s discretion.
                                                                                                           Page 11
                            The Overall Independence of the Office of Appeals
                                         Appears to Be Sufficient



Several sources have expressed concerns that Appeals is not operating independently of IRS
compliance functions and the Office of Chief Counsel in the development of coordinated issues
and settlement initiatives.
     •   Tax professionals told us Appeals can be biased by its requirement to consider the
         opinions and conclusions of IRS compliance functions on coordinated issues.
     •   The National Taxpayer Advocate stated in her 2004 Annual Report to Congress,
         “Appeals’ direct participation with IRS enforcement [compliance functions] in settlement
         initiatives compromises Appeals’ independence in both fact and appearance.”
     •   A prior Appeals executive stated the partnership among Appeals, the Office of Chief
         Counsel, and the IRS compliance functions to coordinate emerging issues in an attempt to
         create a “one-size-fits-all” approach to settlements may be reducing Appeals’
         independence.12

Compliance functions and Appeals exchange information but develop and
administer coordinated issues separately

When IRS compliance functions identify an issue not clearly defined by law, a team is assembled
to coordinate the issue to ensure taxpayers are treated consistently while in the jurisdiction of
IRS compliance functions. The team develops a Coordinated Issue Paper that requires review by
the Office of Chief Counsel. IRS compliance function employees are then required to follow the
guidance in the Coordinated Issue Paper. Although the team can obtain input from Appeals
during development, the resulting Coordinated Issue Paper is not binding on Appeals.
Some taxpayers will appeal tax assessments related to these types of issues because of differing
interpretations of the law. Therefore, once a Coordinated Issue Paper has been developed,
Appeals prepares to receive cases with that issue. An Appeals technical guidance coordinator is
assigned to develop an Appeals Settlement Guideline used to coordinate a nationwide Appeals
approach to the issue to ensure all taxpayers requesting reviews receive similar treatment for
similar facts. Taxpayers seeking a review by Appeals for an issue related to a Coordinated Issue
Paper represented less than 1 percent of the total cases completed by Appeals in FY 2004;
however, the contested liabilities accounted for $12 billion or 36 percent of the total dollars.
To develop an Appeals Settlement Guideline, an Appeals technical guidance coordinator
considers hazards of litigation and input from:




12
  Canciello, Vincent S. “Tax Shelter Resolution Initiatives and the Independence of Appeals.” Journal of Tax
Practice and Procedure (May 2003, Vol. 5, No. 2): 23.
                                                                                                        Page 12
                             The Overall Independence of the Office of Appeals
                                          Appears to Be Sufficient



       •   IRS compliance functions by reviewing the Coordinated Issue Paper and discussing the
           technical issue as needed for clarification. Appeals technical guidance coordinators
           should not discuss the specifics of cases in the jurisdiction of compliance functions which
           might later be assigned to Appeals.
       •   Taxpayers by reviewing cases in Appeals’ jurisdiction. Appeals can also request input
           from interested taxpayer representative or advocate groups.
       •   The Office of Chief Counsel in the form of legal technical advice. To properly analyze
           the hazards of litigation, Appeals will need to know how the Office of Chief Counsel
           intends to litigate and its history of prior litigation.
If Appeals identifies a significant issue requiring coordinated treatment within Appeals, but IRS
compliance functions have not issued a Coordinated Issue Paper for that issue, Appeals can
identify the issue as an Appeals coordinated issue. An Appeals coordinated issue will have an
Appeals technical guidance coordinator assigned and will also lead to the development of an
Appeals Settlement Guideline.
Although there may be significant input from IRS compliance functions, taxpayers, and the
Office of Chief Counsel, the final Appeals Settlement Guideline requires the approval of only
Appeals. The Appeals Settlement Guideline may or may not match the compliance function
Coordinated Issue Paper. The IRS Office of Chief Counsel provides advice on the proposed
Appeals Settlement Guideline, but Appeals can disagree with that advice.
Tax professionals have pointed out that a section of the Internal Revenue Manual indicates
Appeals is required to follow Coordinated Issue Papers, which limits Appeals’ independence.13
This section states that, once an IRS compliance function issues a Coordinated Issue Paper, the
Appeals officer must obtain the review and concurrence of the Appeals technical guidance
coordinator before finalizing a settlement with the taxpayer. We discussed this concern with
Appeals officials and determined this section of the Internal Revenue Manual was not intended
to require Appeals technical guidance coordinators to follow a Coordinated Issue Paper when
providing advice to Appeals officers but rather to coordinate an Appeals approach to the issue.
The Appeals technical guidance coordinators may need to be in communication with Appeals
officers who handle these types of cases to help develop an Appeals Settlement Guideline. The
policy of requiring review and concurrence within Appeals on issues helps to ensure similarly
situated taxpayers receive similar outcomes nationwide as soon as possible.




13
     Internal Revenue Manual 8.7.3.2 (November 2004).
                                                                                              Page 13
                        The Overall Independence of the Office of Appeals
                                     Appears to Be Sufficient




Tax professionals are concerned about the number of coordinated issues and the
lack of access to Appeals technical guidance coordinators

Tax professionals stated the increase in issues being coordinated by Appeals has given them the
impression that they can no longer receive a determination based on an independent review of
their facts and circumstances by an independent Appeals officer. Our review of coordinated
issues developed since FY 2002 found that Appeals has not significantly increased the number
of coordinated issues, except in the area of tax shelters. As of April 2005, Appeals reported
having 99 active coordinated issues, with 70 initiated from Coordinated Issue Papers and 29
initiated from Appeals. Since FY 2002, Appeals has started the coordination of 31 new issues;
8 were initiated from Coordinated Issue Papers and 23 were initiated from Appeals. Twenty
(65 percent) of these 31 new coordinated issues are related to tax shelters for which the IRS has
increased enforcement action. During this same period, Appeals stopped coordination for
17 issues that were initiated by Coordinated Issue Papers. This resulted in a net increase of
14 coordinated issues.
Tax professionals also stated Appeals officers often tell them decisions involving a coordinated
issue must be made by the Appeals technical guidance coordinators, who are perceived by tax
professionals as collaborating with IRS compliance functions and who appear to be subjecting
taxpayers to “one-size-fits-all” settlements. The tax professionals stated they would like the
opportunity to present and discuss a taxpayer’s facts and circumstances directly with the Appeals
technical guidance coordinators; however, they are not sure if they have the right to such a
face-to-face meeting with the coordinators.
Appeals procedures are vague on this point. They require the Appeals technical guidance
coordinators to be involved in settlement negotiations on an “as needed” basis. However, the
Chief, Appeals, stated requests for discussions with Appeals technical guidance coordinators will
be honored in all cases, and taxpayer access to a coordinator is not at the discretion of the
Appeals officer. We believe this policy should be formally included in Appeals procedures and
communicated to Appeals employees as well as to the public.

Appeals Settlement Guidelines are reevaluated based on the results of litigation

Appeals has received criticism that it has been too quick to publicize changes to an Appeals
Settlement Guideline when the Federal Government won in litigation but slow to take similar
action or to publicize a change when the Federal Government lost in litigation.




                                                                                          Page 14
                             The Overall Independence of the Office of Appeals
                                          Appears to Be Sufficient



On October 20, 2004, the IRS announced Appeals was tightening Appeals Settlement Guidelines
based on an Office of Chief Counsel win in the Long-Term Capital Holdings case.14 Attorneys at
an American Bar Association conference in October 2004 objected that there were several other
similar cases still pending and that adjusting the Appeals Settlement Guideline within a month of
one win made Appeals appear to be developing a party-line response in favor of the Office of
Chief Counsel and the IRS Commissioner. One attorney stated “The announcement strips
Appeals of its independence, judgment, and any real utility in these cases.”15
Within a few months, the IRS lost two contingent liability cases in litigation,16 for which no IRS
announcement was made in relation to changing Appeals Settlement Guidelines. In addition,
comments from IRS officials caused criticism about the appearance of Appeals’ independence.
At a November 2004 District of Columbia Bar Taxation Section conference, the Chief Counsel
stated the losses were “blips on the screen” but “in the long run we will prevail.” The IRS Chief
Counsel’s senior shelter coordinator added that there are other contingent liability cases in the
courts and “We’ll see how it comes out.…” 17
Appeals provided us with information about their reevaluation of the Appeals Settlement
Guidelines as a result of the Long-Term Capital Holdings case win and the two contingent
liability case losses. This information provided an adequate basis for the actions taken on the
related Appeals Settlement Guidelines in reaction to the outcomes of these cases. Internal
Revenue Manual procedures require Appeals technical guidance coordinators to consider
revising Appeals Settlement Guidelines within 3 months after any new court decision or other
significant event that would change Appeals’ settlement position for that issue.18 The Appeals
Director of Technical Guidance provided us with examples of Appeals Settlement Guidelines
that had been adjusted in favor of the taxpayer and others adjusted in favor of the Federal
Government due to recent court rulings. Furthermore, we were advised that it is not Appeals’
policy to publicly announce its conclusions when it reevaluates the hazards of litigation in its
Appeals Settlement Guidelines based on new court decisions.
While it appears to be appropriate for the IRS to discuss the strength of its legal position on
issues based on the outcome of court cases, discussing how these cases will affect Appeals
Settlement Guidelines for selected issues and court cases could harm the overall perception of
Appeals’ independence. As such, we believe IRS officials should avoid this practice.



14
   Long-Term Capital Holdings v. United States, 330 F. Supp. 2d 122 (D. Conn., 2004).
15
   Stratton, Sheryl. “Appeals Tightens Screws on Shelter Investors.” 105 Tax Notes 487 (October 25, 2004).
16
   Black and Decker v. U.S., 340 F. Supp. 2d 621 (D. Md. 2004) and Coltec Industries, Inc. v. U.S., 62 Fed. Cl. 716
(2004). Contingent liability tax shelter transactions involve transfers between corporations of high basis assets in
exchange for stock and the assumption of liabilities.
17
   Stratton, Sheryl. “IRS Officials Talk About Shelter Cases, Audits, and Appeals.” 2004 Tax Notes Today 224-4
(November 19, 2004).
18
   Internal Revenue Manual 8.7. 3.3.1(4) (November 2004).
                                                                                                           Page 15
                              The Overall Independence of the Office of Appeals
                                           Appears to Be Sufficient




Tax Shelter Settlement Initiatives19

With the approval of the IRS Commissioner, the compliance functions may establish a Tax
Shelter Settlement Initiative which is intended to encourage taxpayers to come forward to settle
tax issues with the IRS rather than wait to be audited by the IRS. These initiatives are normally
used on what the IRS categorizes as abusive tax shelter transactions. There have been 5 such
initiatives proposed by the IRS in the past 3 years. Tax Shelter Settlement Initiatives are
generally proposed after the development of Appeals Settlement Guidelines. This helps the IRS
compliance functions gauge what type of settlement to offer to make it attractive for taxpayers to
opt for the Tax Shelter Settlement Initiative. Usually, these initiatives offer a settlement to
similarly situated taxpayers that are at least as advantageous as the Appeals Settlement
Guidelines.
The IRS may formally announce that if taxpayers do not opt for the terms of an initiative, they
will likely not obtain a better settlement if they pursue the issue into the Appeals process. If
taxpayers believed they could get a better resolution by proceeding to Appeals instead of
accepting a Tax Shelter Settlement Initiative proposal, it would defeat the purpose of resolving
abusive tax shelter issues at the lowest level possible. Appeals is not required to follow a Tax
Shelter Settlement Initiative. Therefore, if a taxpayer chooses to request an Appeals hearing,
there is a risk that the facts and circumstances of his or her case will result in a decision that is
not as advantageous to the taxpayer as the settlement he or she would have received if he or she
had opted to accept the proposal through the Tax Shelter Settlement Initiative.
Tax professionals have expressed concerns that announcements stating Appeals will not provide
a better settlement than that offered in a Tax Shelter Settlement Initiative indicate Appeals is
working with IRS compliance functions and would not provide a fair, impartial, and independent
review for those who elect to go to Appeals. They provided the following examples of articles
that imply taxpayers should not go to Appeals when a Tax Shelter Settlement Initiative is
involved.
     •   Chief, Appeals, October 2002: “Taxpayers who do not avail themselves of these
         settlement initiatives should not expect a later administrative resolution of their case that
         is more advantageous.”20




19
   The recent five Tax Shelter Settlement Initiatives have also been referred to as “Global Settlement Initiatives” or
“Compliance Settlement Initiatives.”
20
   Lupi-Sher, David L. “Abusive Tax Shelters Face Settlement Restrictions.” 2002 Tax Notes Today 194-1
(October 7, 2002).
                                                                                                              Page 16
                           The Overall Independence of the Office of Appeals
                                        Appears to Be Sufficient



     •   IRS announcement, February 2005: “Appeals has concluded that Executives and Related
         Persons should not expect a resolution of either the tax or penalty issues on terms that are
         more favorable than the terms of this settlement initiative.”21
While these announcements may reduce the perception of Appeals’ independence, in fact, the
statements are based on the knowledge of IRS officials that the Tax Shelter Settlement Initiative
offers a settlement that is at least as advantageous to taxpayers as the Appeals Settlement
Guidelines.

Issues designated for litigation

A Tax Shelter Settlement Initiative may be designated, at the recommendation of the Office of
Chief Counsel and with the approval of the IRS Commissioner, to be a “litigating vehicle.” This
designation has been applied only in rare circumstances. When the designation has been applied,
the scope of the tax issues were so significant that IRS officials believed it was important to
settle or litigate the issue as quickly as possible. For an issue that is designated as a litigating
vehicle, taxpayers are barred from seeking a review by Appeals and must go to court if
agreement with the IRS cannot be reached. The Commissioner, Office of Chief Counsel, and
compliance functions do not require the approval of the Chief, Appeals, to designate an issue as a
litigating vehicle.22 Generally, the IRS will take this action only if there is a strong likelihood of
the IRS prevailing in court on the issue. Otherwise, many taxpayers would litigate the issue
rather than accept the settlement offer.
A recent example of a litigating vehicle is the tax shelter promotion called the “Son of Bond
Option Sale Strategy” (Son of BOSS).23 Appeals was in the process of developing an opinion on
this issue based on a Coordinated Issue Paper at the time it was designated as a litigating vehicle
in March 2004. However, Appeals could not complete an Appeals Settlement Guideline on the
Son of BOSS issue because no cases had been received by Appeals to obtain the critical taxpayer
position information—obtaining the taxpayers’ points of view is essential to the development of
impartial Appeals Settlement Guidelines. In July 2005, the IRS announced approximately
1,200 taxpayers involved in the Son of BOSS promotion agreed to participate in the Tax Shelter
Settlement Initiative, which resulted in the collection of over $3.7 billion in taxes, interest, and
penalties. The remaining taxpayers cannot go to Appeals. Any alternative remedy would be
available to these taxpayers only through the courts. So far, more than 100 Son of BOSS cases
are in court and the IRS expects the first cases to go to trial by early fall.



21
   IRS Announcement 2005-19 (Executive Stock Option Settlement Initiative), 2005-11 Internal Revenue Bulletin
(I.R.B.) 744.
22
   Except for cases already in Appeals.
23
   IRS Announcement 2004-46 (Son of BOSS Settlement Initiative), 2004-21 I.R.B. 964.
                                                                                                      Page 17
                           The Overall Independence of the Office of Appeals
                                        Appears to Be Sufficient



Tax professionals expressed concerns related to the approach taken by the IRS on the Son of
BOSS initiative. They indicated this was a heavy-handed approach in which taxpayers were
being pressured into accepting unfavorable settlement terms by the IRS to avoid litigation. They
believe the IRS should have let cases go to Appeals to allow Appeals to evaluate the merits of
the taxpayers’ positions. To address these concerns, the IRS Chief Counsel stated that, when
Tax Shelter Settlement Initiatives are considered for designation as litigating vehicles in the
future, the IRS will take a different approach. He stated, “The IRS won’t make the same mistake
it did in the recent Son of BOSS settlement initiative of doing a global settlement initiative
before Appeals has had a chance to review at least some of the cases in more detail.”24


Recommendations
Recommendation 3: The Chief, Appeals, should review and clarify procedures in the
Internal Revenue Manual to establish that Appeals does not automatically follow compliance
function Coordinated Issue Papers but rather uses this information and other sources of
information to coordinate an Appeals approach to the issue.
        Management’s Response: Appeals will revise the Internal Revenue Manual and
        issue interim guidance to clarify that Appeals does not automatically follow the direction
        in compliance function Coordinated Issue Papers but rather uses this information along
        with other sources of information to coordinate an Appeals approach to the issue.
Recommendation 4: The Chief, Appeals, should revise procedures in the Internal Revenue
Manual to clearly establish that taxpayer access to Appeals technical guidance coordinators will
be honored, when requested, in all coordinated issue cases.
        Management’s Response: Appeals will revise the Internal Revenue Manual and
        issue interim guidance to clarify that a taxpayer’s request for a technical guidance
        coordinator will be honored.
Recommendation 5: With the exception of the IRS Commissioner and the Chief, Appeals,
IRS officials should avoid discussing the impact of specific court cases on Appeals settlement
guidance. The Chief, Appeals, should consider the appropriateness of discussing changes to
specific Appeals Settlement Guidelines in public statements or announcements and should revise
policies and procedures to promote consistency.
        Management’s Response: Appeals will issue a memorandum to reinforce the
        procedures regarding the reconsideration of the appropriate settlement range or position
        of a coordinated issue based on any new court decision, ruling, or other significant
        occurrence.

24
  Stratton, Sheryl. “IRS Appeals, Audit Initiative Announcements Abound At Conference.” 2004 Tax Notes Today
192-4 (October 1, 2004, as clarified October 6, 2004).
                                                                                                   Page 18
                         The Overall Independence of the Office of Appeals
                                      Appears to Be Sufficient




The Office of Appeals’ Participation on the Service-Wide Abusive
Transaction Executive Steering Committee Allows for Proper
Workload Planning

The Service-Wide Abusive Transaction Executive Steering Committee is made up of executives
from the IRS operating divisions, Criminal Investigation Division, Office of Chief Counsel, and
Appeals. In her FY 2004 Annual Report to Congress, the National Taxpayer Advocate used the
Service-Wide Abusive Transaction Executive Steering Committee as an example of what should
be considered an unallowable use of ex parte communications by Appeals.
The objective of the Service-Wide Abusive Transaction Executive Steering Committee is to
provide IRS-wide oversight for the IRS’ response to abusive tax transactions, schemes, and
devices. The guiding principles are:
   •   Understand the transaction.
   •   Get the right people to the table at the right time.
   •   Respect each function’s role in the administrative process.
   •   Develop an IRS-wide strategy to address the abusive transaction or scheme.
Once the Committee has approved the development of a strategic IRS-wide response to a
specific abusive tax transaction, an Abusive Tax Transaction Team is established. The Team is
initially comprised of an executive champion and technical advisor who are both from a
compliance function, and representatives from the Office of Chief Counsel and Appeals. One of
the primary duties of all Team members is to identify the inventory of potential cases in their
respective offices. As cases flow from IRS compliance functions to Appeals to the Office of
Chief Counsel, the advance knowledge of how much staffing may be needed to handle the
expected workload could be of enormous help to the receiving office. Understanding the
potential workload that can be caused by tax issues and schemes is important even to the tax
courts. For example, a United States Tax Court judge requested the Office of Chief Counsel to
provide information on expected workload in anticipation of litigation for the Son of BOSS tax
shelter.
In the guidelines developed by the Committee, the need for Appeals’ independence in the
process is highlighted by the following statements:
   In accordance with the provisions of [the] RRA 98, Appeals is responsible for the
   independent assessment of the litigating hazards related to a particular tax issue. The
   success of any settlement initiative is based on the credibility of Appeals’ independent
   assessment of the litigation hazards both in fact and appearance. This requires that the
   preparation of the Appeals Settlement Guideline by Appeals will occur only after the
   completion of the following actions:
                                                                                          Page 19
                              The Overall Independence of the Office of Appeals
                                           Appears to Be Sufficient



       •   Development by Compliance [functions] of a full factual position for the issue in a
           Coordinated Issue Paper or equivalent document,
       •   Summation by [the Office of] Chief Counsel of the legal arguments that will be
           used if the issue proceeds to litigation, and
       •   Consideration by Appeals of the position of affected taxpayers.
Revenue Procedure 2000-43 details the circumstances under which ex parte communications are
and are not allowable.25 This procedure states the prohibition against ex parte communications
does not apply to cross-functional meetings as long as specific taxpayers are not identified.
Although not specifically identified in Revenue Procedure 2000-43, the Service-Wide Abusive
Transaction Executive Steering Committee falls within this exception’s definition. In passing
the RRA 98, the Congress specifically allowed for ex parte communications that do not impair
the appearance of Appeals’ independence. This Committee was not formed to discuss the merits
of specific cases but to act as a steering function for the overall inventory of cases. As long as
the Committee adheres to its stated principles of maintaining Appeals’ independence throughout
the process, and we did not find any evidence to indicate otherwise, we believe Appeals’
participation on the Committee is permissible under Revenue Procedure 2000-43 and the
RRA 98.




25
     Revenue Procedure 2000-43, I.R.B. 2000-43, 404.




                                                                                             Page 20
                             The Overall Independence of the Office of Appeals
                                          Appears to Be Sufficient




                                                                                                   Appendix I


          Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate whether the Office of Appeals’ (Appeals)
modernized structure and processes provide the level of independence intended by the Internal
Revenue Service (IRS) Restructuring and Reform Act of 1998 (RRA 98).1 To achieve the
objective, we:
I.       Reviewed the legal requirements of an independent Appeals function as mandated by the
         RRA 98.
         A. Researched tax law on the issue of the independence of Appeals, including
            prohibitions on ex parte communications.2
         B. Researched IRS regulations, rulings, manuals, policy statements, and memoranda.
II.      Reviewed the historic and current structures of Appeals, including campus centralization,
         to determine whether Appeals’ current structure meets the requirements of an
         independent Appeals function as mandated by the RRA 98.
III.     Evaluated whether the Fast Track Programs conflict with requirements to maintain
         Appeals’ independence.
         A. Reviewed program policies, procedures, and Internal Revenue Manual guidelines for
            the Appeals Fast Track Settlement Program and the Appeals Fast Track Mediation
            Program.
         B. Interviewed key Appeals managers and analysts about the policies and procedures for
            these Programs, as they relate to the independence maintained by Appeals officers.
         C. Reviewed all 39 of the 114 Fiscal Year (FY) 2004 Fast Track Settlement Program
            closed case files having a program customer satisfaction survey response to evaluate
            customer comments related to Appeals independence. These 39 case files along with
            a random sample of 20 additional files were also reviewed for possible ex parte
            communications. We limited the number of files selected because the sample was
            intended to identify whether there were indications of problems. We did not intend to
            project our results to the total number of cases.


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  These are communications between Appeals and other IRS functions when the taxpayer is not present.
                                                                                                              Page 21
                      The Overall Independence of the Office of Appeals
                                   Appears to Be Sufficient



IV.   Evaluated whether existing controls identify specific violations of Appeals’ independence
      requirements.
      A. Determined whether the Appeals Quality Measurement Program is identifying
         violations of the independence or prohibited ex parte communications rules.
      B. Analyzed the Appeals Centralized Database System to determine whether Appeals
         officers assigned to the Fast Track Settlement Program cases have also been assigned
         to the related traditional Appeals cases for the same taxpayers.
V.    Evaluated instances of a perceived lack of independence in the Appeals process.
      A. Researched tax practitioner publications to identify public concerns about Appeals’
         independence.
      B. Interviewed representatives from constituent groups such as the American Bar
         Association, the American Institute of Certified Public Accountants, the National
         Association of Enrolled Agents, and the National Society of Accountants.
      C. Interviewed prior Appeals executives, now working in private tax practice, to identify
         any concerns with changes to Appeals policies since enactment of the RRA 98.
      D. Reviewed National Taxpayer Advocate reports and testimony to Congress.
      E. Reviewed the results of the FYs 2003 and 2004 Appeals Customer Satisfaction
         Surveys to determine taxpayers’ perception of Appeals’ independence.
      F. Interviewed the Chief of Appeals, key Appeals technical analysts, and the IRS Chief
         Counsel for their responses to instances of a perceived lack of Appeals’ independence
         identified by tax professionals and the National Taxpayer Advocate.
VI.   Reviewed the structure, policies, and procedures of the Service-Wide Abusive
      Transaction Executive Steering Committee.




                                                                                        Page 22
                       The Overall Independence of the Office of Appeals
                                    Appears to Be Sufficient




                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Michael E. McKenney, Director
Aaron R. Foote, Audit Manager
Daniel M. Quinn, Lead Auditor
Mike Della Ripa, Auditor




                                                                                      Page 23
                      The Overall Independence of the Office of Appeals
                                   Appears to Be Sufficient




                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner- Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief Counsel CC
Deputy Chief, Appeals AP
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief, Appeals AP
       Chief Counsel CC
       Deputy Commissioner for Services and Enforcement SE




                                                                          Page 24
        The Overall Independence of the Office of Appeals
                     Appears to Be Sufficient




                                                   Appendix IV

Management’s Response to the Draft Report




                                                            Page 25
The Overall Independence of the Office of Appeals
             Appears to Be Sufficient




                                                    Page 26
The Overall Independence of the Office of Appeals
             Appears to Be Sufficient




                                                    Page 27
The Overall Independence of the Office of Appeals
             Appears to Be Sufficient




                                                    Page 28
The Overall Independence of the Office of Appeals
             Appears to Be Sufficient




                                                    Page 29
